No. 20-6190

In the
SUPREME COURT OF THE UNITED STATES

BRADLEY FREEMAN,
Petitioner,
vs.

STATE OF NEW MEXICO,
Respondent.

On Petition for a Writ of Certiorari to the New Mexico Supreme Court
ON PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF SERVICE

I, Charles D. Agoos, a member of the Bar of this Court, hereby certify that on
the 11th day of February, 2021, one copy of the Reply Brief in Support of Certiorari
in the above-entitled case, was sent electronically to Lauren Wolongevicz, Esq.,
Assistant Attorney General, Attorney General's Office, 201 Third Street N.W., Suite
300, Albuquerque, NM, 87102, counsel for Respondent, State of New Mexico. I further
certify that she is the only party required to be served, and that she has been served.

CN

Charles D. Agoos

Attorney of Record

Assistant Appellate Attorney

Law Offices of the Public Defender
1422 Paseo de Peralta, Bldg. 1
Santa Fe, New Mexico 87501

(505) 395-2890
Charles.Agoos@lopdnm.us
